  Report No. D-2009-055           February 13, 2009




Base Realignment and Closure 2005 for the Pensacola
    Undergraduate Navigator Training Relocation
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AETC                          Air Education and Training Command
AFB                           Air Force Base
AFI                           Air Force Instruction
BRAC                          Base Realignment and Closure
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
IG                            Inspector General
MILCON                        Military Construction
NAS                           Naval Air Station
                                        INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704

                                                                                     February 13,2009

    MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                      TECHNOLOGY, AND LOGISTICS
                  UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DoD CHIEF
                      FINANCIAL OFFICER
                  ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                      MANAGEMENT AND COMPTROLLER)
                  NAVAL INSPECTOR GENERAL

    SUBJECT: Base Realigillilent and Closure 2005 for the Pensacola Undergraduate Navigator
             Training Relocation (Report No. D-2009-055)


    We are providing tIns repOli for your information and use. We considered COlmnents from the
    Deputy Assistant Secretary of the Air Force (Installations) and Assistant Secretary of the Navy for
    Installations and Enviromnent when preparing the final repOli. As a resnlt of management
    connnents and a subsequent meeting with senior Air Force and DoD Inspector General officials,
•   we have revised draft Finding A and deleted draft Reconllilendation A.l. Draft Recommendations
    A2.a. and A2.b. have been renumbered as Recommendations AI. and A2.

    Comments to the recommendations on the draft of this repOli conformed to the requirements of
    DoD Directive 7650.3 and left no umesolved issues on the recommendations. Therefore, we do
    not require any additional comments.

    We appreciate the comiesies extended to the staff. Please direct questions to me at (703)
    604-9201 (DSN 664-9201). If you desire, we will provide a fonnal briefing on the results.




                                                 Richard B. Jolliffe
                                                 Assistant Inspector General
                                                 Acquisition and Contract Management
                    Report No. D-2009-055 (Project No. D2007-D000CG-0047.002)
                                         February 13, 2009

               Results in Brief: Base Realignment and
               Closure 2005 for the Pensacola
               Undergraduate Navigator Training Relocation
                                                         will be lost when the Air Force program
What We Did                                              relocates to Naval Air Station Pensacola.
Base Realignment and Closure (BRAC) 2005
Recommendation 128 relocates Air Force                   We identified material internal control
undergraduate navigator training from Randolph           weaknesses for the three BRAC military
Air Force Base to Naval Air Station Pensacola.           construction projects reviewed because the Air
We reviewed three Air Force projects submitted           Force did not follow DoD and Air Force
to Congress in response to Recommenda-                   guidance, perform a required economic analysis,
tion 128 to determine whether the projects were          adequately support the line item cost estimates,
valid, supported, and whether the BRAC                   or properly review and validate DD
analysis considered existing facilities.                 Forms 1391.

What We Found                                            What We Recommend
The Air Force did not adequately support the             The Air Force should conduct economic
BRAC project for bachelor housing. The Air               analyses when projects are first considered,
Force did not support the project because it did         justify the line item cost estimates in the DD
not perform an economic analysis comparing all           Form 1391 more adequately, and review and
feasible alternatives or obtain an economic              validate the DD Form 1391.
analysis waiver, justify the line item cost
estimates with supporting documentation, or              Management Comments and
properly review and validate the DD                      Our Response
Form 1391.                                               The Air Force disagreed with Finding A and
                                                         Recommendation A.1., stating the bachelor
The Air Force also did not provide adequate              housing project is valid. As a result of
support documentation for the hangar and                 management comments and a subsequent
instruction facility projects because no                 meeting with senior Air Force and DoD
economic analysis was performed, nor was a               Inspector General officials, we have revised
waiver obtained; line item cost estimates were           draft Finding A and deleted draft
not adequately supported or justified; and the           Recommendation A.1. Draft Recommendations
DD Forms 1391 were not properly reviewed                 A.2.a. and A.2.b. have been renumbered as
and validated. Nevertheless, the Air Force               Recommendations A.1. and A.2. The Air Force
awarded a contract for both projects.                    agreed with Recommendations A.2.a., A.2.b.,
                                                         and B., stating Air Force officials will reinforce
Additionally, the relocation of Air Force                military construction requirements in formal
undergraduate navigator training will not                guidance to major command BRAC offices.
accomplish the justifications stated in support of       Although not required to respond, we also
Recommendation 128. The jointness and                    received comments from the Navy. Please see
synergies that currently exist at Randolph Air           the recommendations table on the back of this
Force Base and Naval Air Station Pensacola               page.


                                                     i
                Report No. D-2009-055 (Project No. D2007-D000CG-0047.002)
                                     February 13, 2009

Recommendations Table
Entity                             Recommendations          No Additional Comments
                                   Requiring Comment        Required
The Deputy Assistant Secretary                              A.1., A.2., and B.
of the Air Force (Installations)




                                            ii
Table of Contents

Results in Brief                                                    i

Introduction                                                        1

       Objectives                                                  1
       Background                                                  1
       Review of Internal Controls                                 4

Finding A. Bachelor Housing Project                                 7

       Management Comments on the Finding and Our Response         15
       Recommendations, Air Force Comments, and Our Response       17

Finding B. Hangar and Instruction Facility Projects                19

       Management Comments on the Finding and Our Response         23
       Recommendation, Air Force Comments, and Our Response        24

Planned Undergraduate Navigator Training and Facilities Will Not   25
Enhance Jointness

       Management Comments on Joint Training and Our Response      27

Inherently Governmental Functions                                  28

Appendices

       A. Scope and Methodology                                    31
       B. Prior Coverage                                           33
       C. Memorandum for Air Force BRAC Office                     39

Management Comments

       Department of the Navy                                      41
       Department of the Air Force                                 42
Introduction
Objectives
The overall audit objective was to determine the accuracy of Defense Base Realignment
and Closure (BRAC) 2005 military construction (MILCON) budget data. The specific
objectives were to determine whether the proposed military construction projects were
based on valid BRAC requirements, were supported with the required documentation,
and whether the BRAC analysis considered existing facilities.

We evaluated three Air Force undergraduate navigator training projects submitted in
response to BRAC Recommendation 128 Undergraduate Navigator Training. 1
Specifically these were:

       Project TYMX073710, “BRAC – USAF [United States Air Force] Navigator
        Training Hangar”;
       Project TYMX073720, “BRAC – CSO [Combat Systems Officer] Applied
        Instruction Facility”; and
       Project TYMX073730, “BRAC – Combat Systems Officer (CSO) Bachelor
        Housing.”

See Appendix A for a discussion of scope and methodology. See Appendix B for prior
audit coverage.

Background
Prior to BRAC 2005, Public Law 102-190, “National Authorization Act for Fiscal
Years 1992 and 1993,” Part A, “Defense Base Closure and Realignment,” mandated that
the DoD Inspector General (IG) investigate each military construction project. For
BRAC 2005, Congress did not pass a law with a similar mandate. The Service Audit
organizations are auditing single-Service BRAC MILCON projects, while the DoD IG is
reviewing selected multi-Service 2 projects and Defense-Wide Agencies and Activities
projects. This report is one in a series of DoD IG audits of multi-Service projects.

Military Construction
DoD Financial Management Regulation 7000.14-R, Volume 2B, Chapter 6, “Military
Construction/Family Housing Appropriations,” June 2006, requires that each proposed
MILCON project be supported by a “Military Construction Project Data” DD Form 1391
and that an economic analysis is required to support all new construction or renovation



1
  BRAC Recommendation 128 includes more than the undergraduate navigator training. However, as used
in this report, Recommendation 128 will refer to the undergraduate navigator training portion of the
recommendation.
2
  Multi-Service refers to projects involving the move of one or more Service’s components/activities to
another Service’s location.


                                                   1
projects estimated to cost over $2 million. Air Force Instruction 32-1021, “Planning and
Programming Military Construction (MILCON) Projects,” January 2003, states:

          The DD Form 1391, by itself, shall explain and justify the project to the Air
           Force, the Office of the Secretary of Defense, the Office of Management and
           Budget, and Congress.
          Accurate DD Form 1391 project cost estimates are essential to successful
           MILCON project development and execution.
          To ensure prudent economic investments, an economic analysis is required for all
           new construction projects over $1 million.
          Headquarters Air Force, major commands, and installation commanders are
           required to review and validate the need for each proposed MILCON project, and
           confirm that the proposed project is the most cost-effective means of satisfying
           the requirement.

DoD Financial Management Regulation 7000.14-R, Volume 2B, Chapter 7, “Base
Realignment and Closure Appropriations,” June 2006, requires the Services and the
Defense-Wide Agencies and Activities to provide in their annual budget request to
Congress a DD Form 1391 for each BRAC MILCON project. The BRAC 2005
MILCON projects are included in the BRAC 2005 justification books for congressional
approval.

Undergraduate Navigator Training Program
The Air Force has two undergraduate navigator training squadrons (562nd and 563rd)
located at Randolph Air Force Base (AFB). The 562nd was a rotating command between
the Air Force and Navy; it trained Air Force, Navy, and international students for heavy
panel/maritime aircraft. 3 The 563rd is the Air Force’s Electronic Warfare Training
School squadron. The 563rd has Air Force instructors and students.

The Navy has three undergraduate navigator training squadrons (VT-4, VT-10, and
VT-86) located at Naval Air Station (NAS) Pensacola. VT-4 and VT-10 are
primary/intermediate training squadrons and VT-86 is an advanced training squadron.
The VT-10 squadron was jointly commanded by the Air Force and Navy. These
squadrons use Navy, Air Force, Marine Corps, and international instructors to train Navy,
Air Force, Marine Corps, and international students.

The Air Force has 202 on-base rooms for students attending undergraduate navigator
training at Randolph AFB. The other 200+ students attending training at Randolph AFB
live off-base. All Air Force and Navy unaccompanied undergraduate navigator students
attending training at NAS Pensacola are housed off-base.




3
    As of the end of FY 2008, the 562nd stopped having a rotating command or training Navy navigators.


                                                      2
2005 Defense BRAC Commission, Recommendation 128
Undergraduate Navigator Training
The Secretary of Defense’s 2005 BRAC Recommendation 128 states:
                    Realign Randolph Air Force Base, TX [Texas] by relocating
                    Undergraduate Navigator Training to Naval Air Station Pensacola, FL
                    [Florida].

The Secretary of Defense’s justification for this recommendation further states:

                    This recommendation will realign and consolidate the Air Force’s
                    primary phase of undergraduate flight training functions to reduce
                    excess/unused basing capacity, eliminate redundancy, enhance
                    jointness for Undergraduate Navigator Training/Naval Flight Officer
                    (NFO) training, reduce excess capacity, and improve military value.

                    The basing arrangement that flows from this recommendation will
                    allow the Inter-service Training Review Organization process to
                    establish a DoD baseline program in Undergraduate Navigator
                    Training/NFO with curricula that permit services latitude to preserve
                    service-unique culture and a faculty and staff that brings a “Train as we
                    fight: jointly” national perspective to the learning process.

The BRAC Commission’s findings stated:

                    The Commission found no reason to disagree with the Secretary’s
                    recommendation or justification. The Commission understands the
                    proposal will realign training to other installations where the same
                    mission already exists, maintenance facilities are established, and
                    capacity to absorb the mission is adequate. As a result, the
                    Commission finds the recommendation appropriately enhances military
                    value at reasonable cost.

Estimated One-Time Costs
Recommendation 128’s total one-time cost estimate 4 for all portions of the
recommendation was $71.7 million. Of this total, $25.6 million in MILCON costs were
attributed to the hangar and instruction facility for the undergraduate navigator training
relocation. No bachelor housing facility need was identified in the Secretary of
Defense’s justification or recommendation and no MILCON cost for this facility was
included in the recommendation’s one-time cost estimate. The BRAC Commission
approved the relocation based on the information and costs submitted by the Secretary of
Defense, and the Commission stated that the recommendation would appropriately
enhance military value at a reasonable cost.

Military Value
According to the Secretary of Defense, a primary objective of BRAC 2005 was to
examine and implement opportunities for greater joint activity. The Department of

4
    The one-time cost estimate includes operations and maintenance, military construction, and other costs.


                                                       3
Defense gave priority consideration to military value when selecting military installations
for closure or realignment. The first of four criteria used in evaluating military value
included the mission capabilities and the impact on operations for joint warfighting,
training, and readiness.

Recommendation 128 states that Randolph AFB will relocate its undergraduate navigator
training to NAS Pensacola. The Secretary of Defense’s Justification for Recommenda-
tion 128 further states that this recommendation will realign and consolidate the Air
Force’s primary phase of undergraduate flight training functions to reduce excess/unused
basing capacity, eliminate redundancy, enhance jointness for Undergraduate Navigator
Training/Naval Flight Officer training, reduce excess capacity, and improve military
value. However, when the Air Force relocates the undergraduate navigator training
program from Randolph AFB to NAS Pensacola, future undergraduate navigator training
will be collocated and not be joint.

Project Documentation
In response to Recommendation 128 Undergraduate Navigator Training, the Air Force’s
562nd and 563rd squadrons will be deactivated at Randolph AFB and in their place new
squadrons will be activated at NAS Pensacola. 5 To support this transfer, the Navy
prepared the initial DD Forms 1391 for the projects. However, as the executive agent for
the projects, the Air Force assumed responsibility for the preparation and submittal of
subsequent DD Forms 1391 to Congress. Specifically, the Air Force submitted the
DD Forms 1391 in the “Department of the Air Force, DoD Base Realignment and
Closure (2005 Commission), Fiscal Year (FY) 2008/2009 Budget Estimates, Justification
Data Submitted to Congress: February 2007” (hereafter referred to as justification book).

Review of Internal Controls
We identified internal control weaknesses in all three Air Force projects as defined by
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. We consider these internal control weaknesses to be material for the
three BRAC MILCON projects we audited. We did not review all BRAC MILCON
projects or statistically sample BRAC MILCON projects to determine materiality to the
program as a whole. The Air Force’s internal controls were not properly implemented
because the Air Force did not follow DoD and Air Force guidance. The Air Force did not
provide documentation to show that the projects had been properly reviewed and
validated. In addition, the Air Force did not perform the required economic analysis or
adequately support the line item cost estimates. Instructions require review and
validation of the DD Forms 1391. If the Air Force had followed DoD and Air Force
guidance, performed a proper review and validation of these projects, had back-up data
for the line item cost estimates, and performed an economic analysis, the three projects
would have been the best option and estimate for the Air Force. Implementing

5
 Memorandum from Department of Air Force, Headquarters Nineteenth Air Force, signed by Air Force
Major General Irving L. Halter, Jr. Commander, on September 21, 2007, states the deactivation of the 562nd
and 563rd squadrons at Randolph AFB and the activation of a new Flying Training Group at NAS
Pensacola.


                                                    4
Recommendation A.1., A.2., and B. will improve future military construction projects. A
copy of the report will be sent to the senior official in charge of internal controls for the
Assistant Secretary of the Air Force (Financial Management and Comptroller).




                                              5
6
Finding A. Bachelor Housing Project
The Air Force did not adequately support the BRAC MILCON project data for the
Bachelor Housing Project TYMX073730 for BRAC Recommendation 128
Undergraduate Navigator Training. The support was inadequate because the Air Force
did not:

       perform an economic analysis comparing all feasible alternatives or obtain an
        economic analysis waiver,
       adequately justify the line item cost estimates with supporting documentation, or
       properly review and validate the DD Form 1391.

As a result, the Air Force is proposing to spend $39.6 million of limited BRAC MILCON
funds for a project that was not adequately supported or may not be the most cost
effective alternative.

BRAC Requirement
The Air Force has not adequately supported the bachelor housing MILCON project for
Recommendation 128. The Air Force did not follow DoD Financial Management
Regulation 7000.14-R, Volume 2B, Chapter 6; or Air Force Instructions 32-1021,
32-1032, and 65-501 6 when preparing and submitting the request for the bachelor
housing project. The Air Force did not ensure the bachelor housing project was
adequately supported, or that constructing a new facility was the most cost-effective
alternative.

       Although the Air Force was aware there were alternatives to new construction, the
        Air Force decided to do new construction without performing an economic
        analysis or justifying and obtaining an economic analysis waiver.
       The Air Force did not support the user needs and unit costs used to compute the
        line item cost estimates in the DD Form 1391 or provide adequate supporting
        documentation demonstrating the DD Form 1391 was properly reviewed and
        validated.

Economic Analysis
The Air Force did not perform an economic analysis of all feasible alternatives for
undergraduate navigator bachelor housing identified by both the Air Force and the Navy
from 2004 through 2007. The Air Force also did not obtain an economic analysis waiver
for this project.


6
 DoD Financial Management Regulation 7000.14-R, Volume 2B, Chapter 6, “Military
Construction/Family Housing Appropriations,” June 2006; Air Force Instruction 32-1021, “Planning and
Programming Military Construction (MILCON) Projects,” January 2003; Air Force Instruction 32-1032,
“Planning and Programming Appropriated Funded Maintenance, Repair, and Construction Projects,”
October 2003; and Air Force Instruction 65-501, “Economic Analysis,” November 2004.


                                                  7
The Air Force did not consolidate or consider information in various reports as a whole to
determine project requirements or alternatives. The Air Force prepared two site surveys
and two Site Action Task Force reports. The Navy prepared a BRAC Program
Relocation Study. In addition, neither the Air Force nor the Navy included cost-benefit
analyses in the reports.

The Air Force also did not compare housing Air Force students off-base to the
construction of a new bachelor housing facility; nor did the Air Force consider the impact
or cost benefit of not providing a joint Air Force-Navy facility. The Air Force submitted
to Congress a project estimate for new construction of $39.6 million without performing
the required economic analysis.

Specifically, the Air Force and the Navy identified the following in the reports and
various versions of the DD Form 1391 for the bachelor housing project.

      In January 2004, an Air Force site survey for NAS Pensacola stated that
       undergraduate navigator students were eligible for either permanent change of
       station or off-base housing based on a 14-month training period. The survey
       recommended off-base housing to eliminate the need for a new lodging facility.
      In August 2005, the Air Force identified in a new Air Force site survey a
       requirement for bachelor housing at NAS Pensacola, contrary to the January 2004
       proposal. The survey identified costs for new construction estimated at
       $24 million.
      In response to the Air Force’s newly identified bachelor housing requirement, the
       Navy prepared several DD Form 1391 estimates for a new facility that would
       jointly house Navy and Air Force undergraduate navigator trainees. The
       estimated cost in December 2005 was $33.7 million.
      In early 2006, in a BRAC Program Relocation Study, the Navy identified several
       alternatives to the Air Force’s proposed new bachelor housing facility and offered
       (as one option) three existing Navy facilities.
      In April 2006, the Air Force identified in its first Site Action Task Force report
       the renovation of the three existing Navy facilities and included a DD Form 1391
       with a project estimate of $29 million.
      In February 2007, the Air Force submitted to Congress in its FY 2008/2009
       justification book a $29 million budget estimate (DD Form 1391 dated
       September 2006) for the renovation of the three existing Navy facilities. The
       DD Form 1391 identified the need for Navy and Air Force undergraduate
       navigator housing.

Contrary to the information included in the FY 2008/2009 justification book
DD Form 1391 dated September 2006, the proposed facility was not a joint Navy-Air
Force facility but was actually an Air Force-only housing facility.

Prior to the Air Force’s submission to Congress (as documented in the second Air Force
Site Action Task Force report), the Navy had objected in November 2006 to Air Force-


                                             8
only bachelor housing at NAS Pensacola. The Navy objected because the facilities
would be uniquely Air Force and based on Air Force standards, would be built on a naval
facility without allowing naval personnel access even on an as-available basis, and the
Navy would still be responsible for maintaining the facilities.

In response, the Air Force prepared a revised DD Form 1391 (dated July 2007) that
contained a new Air Force-only bachelor housing project estimated to cost $39.6 million.
The Air Force included this revised DD Form 1391 in its FY 2009 justification book
submitted to Congress. The Air Force stated in the DD Form 1391 (dated July 2007) for
the bachelor housing project that:

                 A preliminary analysis of reasonable options was accomplished
                 comparing alternatives of leasing, renovation/modernization, and new
                 construction. It indicates the only option that will meet operational
                 requirements is new construction. Because of this, a full economic
                 analysis was not performed. A certificate of exception 7 will be
                 prepared.

The Air Force did not perform an adequate analysis of reasonable options. When we
requested the analysis and waiver cited, the Air Force provided a narrowly focused
analysis for this DD Form 1391. The Air Force provided an analysis that compared only
the renovation of the existing building to demolition and new construction. The Air
Force did not consider off-base housing or any other alternatives. Additionally, the Air
Force did not obtain an economic analysis waiver for this project.

During the exit conference with the Air Force in July 2008, the DoD IG again brought to
Air Force’s attention that the project had no economic analysis or waiver. In response,
the Air Force initiated a Request for Waiver from an Economic Analysis in July 2008,
about a year after the DD Form 1391 was prepared. The Air Force asked the Navy to
sign the request for waiver. However, a Navy official stated that the Navy could not
assist with the economic analysis waiver because the Navy was not involved in
developing the DD Form 1391.

Air Force Instruction (AFI) 65-501, “Economic Analysis,” November 2004, states that
the Office of the Secretary of Defense Comptroller has authority to grant waivers from
economic analysis requirements. The Office of the Secretary of Defense Comptroller has
not approved the waiver for this project.

DoD Financial Management Regulation, Volume 2B, Chapter 6, “Military
Construction/Family Housing Appropriations,” June 2006, states that an economic
analysis is required to support all new construction or renovation projects estimated to
cost over $2 million. More restrictive and specific, AFI 65-501 requires a full economic
analysis when a new project costs exceed $1 million and more than one option exists to
satisfy a valid requirement. Furthermore, a preliminary economic analysis is to include


7
 Air Force Instruction 65-501, “Economic Analysis,” November 2004, identifies an economic analysis
waiver or exemption. The term used in the DD Form 1391 was certificate of exception.


                                                  9
an estimation of the benefits and cost of each feasible alternative as required by
AFI 65-501, Chapter 2.2.5.1:

                 A preliminary EA [economic analysis] is a first effort at the elements of
                 economic analysis, including: statement of the problem or objective,
                 assumptions, alternatives, determination of feasible or infeasible
                 alternatives, an estimation of the benefits and costs of each feasible
                 alternative, and consideration of the riskiness of the recommendation
                 relative to key variables.

The Air Force did not compare the numerous alternatives proposed during the 2004 to
2007 time frame that potentially could have met the need for housing undergraduate
navigator trainees. We do not agree that new construction was the only option or that a
waiver would apply to this project. The Air Force’s request for a waiver was never
approved by the Office of the Secretary of Defense Comptroller. We believe an
economic analysis was required for this project; however, the Air Force did not perform
an economic analysis or obtain a valid waiver.

Cost Estimates
The Air Force did not support the line item cost estimates 8 in the DD Form 1391 (dated
July 2007) for the bachelor housing project. According to AFI 32-1021, Chapters 2.2.3
and 3.3.4:

                 When it is determined a facility shall be constructed or upgraded, the
                 Base Civil Engineer (BCE) will prepare and submit DD Forms 1391,
                 and all other applicable documentation . . . Documentation (typically
                 obtained from facility users) shall include a fully justified, indisputable
                 case for accomplishing the project.

                 Accurate project cost estimates are essential to successful MILCON
                 project development and execution. Cost estimates must be closely
                 scrutinized to ensure they are in-line with the OSD [Office of the
                 Secretary of Defense] Pricing Guide or fully justified with historical
                 cost data.

The Air Force did not support either the user needs and/or unit costs on the DD
Form 1391. Therefore, the primary and supporting line item cost estimates are not
supported. The primary line item cost estimate in the DD Form 1391 is the bachelor
housing line item. This line item accounts for about 75 percent of the estimated
$39.6 million project cost. The Air Force supported the user needs (number of personnel
and room size equaling 143,420 square feet) but not the unit cost of $208 per square foot.
The bachelor housing line item also impacts other primary and supporting line items that
were calculated as percentages of this line item. These line items account for about
19 percent of the project cost.



8
 Line item cost estimates are calculated by multiplying the user needs by the unit costs. Each
DD Form 1391 has several line item cost estimates that add up to the project cost.


                                                    10
The Air Force and Navy did not provide documentation supporting the $208 per square
foot unit cost for the bachelor housing line item. The Air Force’s DD Form 1391 cited a
2006 Navy contract award as support for the bachelor housing project cost. The DD
Form 1391 stated:

               The cost estimate for this project ($33,471,000 without demo
               [demolition] of Bldg [Building] 3246, and project Contingency and
               SIOH [Supervision, Inspection and Overhead]) is $233SF [square feet].
               It is based on a CY [Calendar Year] 2006 VQ [Visiting Quarters]
               award at NASP [NAS Pensacola]. This project (currently under
               construction) was awarded at approximately $45.4M [million] (without
               furnishings, contingency and SIOH) and included multiple buildings,
               365 VQ rooms, 400+ parking spaces and a total of 192,424SF or
               approximately $235/SF.

The Navy could not provide support for the unit cost for the bachelor housing line item.
The Navy provided a 2005 contract award not the 2006 contract award cited in the Air
Forces’ DD Form 1391 as the source of information which still did not support the cost.
The Navy 2005 contract award identified the award for visiting quarters for about
$47.4 million, not $45.4 million and did not cite the building’s square feet as indicated on
the Air Force’s DD Form 1391. After our exit conference with the Navy in July 2008,
Navy personnel provided a “Post Award Kickoff Meeting” document to support the
square feet for the 2005 contract award. The square footage cited in the document was
“up to 196,441 square feet.” This square footage still does not support the $208 per
square foot cited by the Air Force.

The Air Force did not support the cost of the visiting quarters stated in the DD
Form 1391. The Air Force maintained the position that the amounts were verbally
provided by the Navy even after our exit conference in July 2008. The Air Force also
attempted to support the unit cost by using the Office of the Secretary of Defense Pricing
Guide (Unified Facilities Criteria). However, this calculation was flawed as well because
it ignored the “area cost factor” needed for Pensacola.

The Air Force did not support the line item cost estimates as required by AFI 32-1021.
The Air Force is the executive agent and is responsible for all documentation supporting
the DD Form 1391. Because of the lack of support for the line item cost estimates, the
Air Force cannot assure the line item cost estimates, and therefore the project cost
estimate, are accurate.

Review and Validation
The Air Force did not properly review and validate the DD Form 1391 (dated July 2007)
for the bachelor housing project to ensure it was accurate and supported. The Air Force
is responsible for ensuring that the DD Form 1391 is properly reviewed and validated.

According to AFI 32-1021, Chapter 3.3.3:

               HQ USAF [Headquarters United States Air Force], MAJCOMs [major
               commands], and installations shall validate each MILCON project by



                                                11
              verifying the requirement that creates the need for the proposed project
              and confirming the proposed project is the most cost effective means of
              satisfying the requirement. Projects justified on an economic basis, and
              all projects costing over $2 million, require an economic analysis in
              accordance with AFI 65-501, Economic Analysis. The MAJCOM/CEP
              [Civil Engineer Programmer] or equivalent confirms DD Form 1391
              data is accurate and complete by signing the form in block 9.

Furthermore, AFI 32-1032, Chapter 3.5.5, “Planning and Programming Appropriated
Funded Maintenance, Repair, and Construction Projects,” October 2003, states:

              DD Forms 1391 forwarded to AF/ILE [Installations, Logistics and
              Environment] for approval must contain the following signed
              certification from the MAJCOM Civil Engineer Programmer (CEP): “I
              have reviewed this document and certify it is complete and
              accurate. I have validated the project’s primary and supporting
              costs and work classification. It has been fully coordinated with the
              user and other appropriate agencies and approved by the
              Installation Commander.”

The Air Force did not provide supporting documentation demonstrating that a proper
review and validation was performed. We requested supporting documentation showing
that the DD Form 1391 had been reviewed and validated. The Air Force stated that the
project had been reviewed and validated in the Air Force’s BRAC Management Tool.
We asked for access to the BRAC Management Tool to confirm that the project had been
reviewed and validated. Rather than provide access to the system as requested so that we
could validate the Air Force statements, the Air Force BRAC Program Management
Office Director stated in an e-mail that:

              A line-by-line review was conducted of all three of these MILCON
              projects. That review includes an analysis of the square foot
              requirement, unit cost factor, lump sum items, etc. If inconsistencies
              are found, we coordinate with the MAJCOM [major command] to re-
              evaluate the requirement and provide an updated, corrected 1391.
              There is no formal documentation of the line-by-line analysis. Instead,
              once the correct requirement has been stated, along with reasonable
              cost estimates, the 1391 is finally entered into BMT [BRAC
              Management Tool] where the requirement is approved and funding is
              programmed against it. Approval in BMT equates to final validation
              by our office.

We do not consider this statement adequate verification that AFI 32-1021 or AFI 32-1032
were followed, especially considering that the DD Form 1391 did not contain any of the
required signatures or statements.

After our exit conference with the Air Force in July 2008, the Chief of Air Education and
Training Command (AETC) BRAC Office provided screen prints of the approvals
included in the BRAC Management Tool, demonstrating review and validation.
However, all of the names noted as approving officials in the screen prints were those of
contractors. The Air Force provided no evidence in the documents provided that review
and validation by the BRAC Program Management Office, the major command, or any


                                                12
other Government official had occurred. In addition, the items listed do not clearly state
that this is a review and validation of the DD Form 1391 or its line items.

The Air Force did not include approving signatures on the DD Form 1391 or any other
evidence demonstrating that a proper review and validation was performed. The Air
Force did not follow either Air Force Instruction, and as a result, the data on the
DD Form 1391 are unreliable, may be inaccurate, and the proposed facility may not be
the most cost-effective means of satisfying the requirement.

Air Education and Training Command’s Letter in
Response to Discussion Draft
The Air Force BRAC Program Management Office provided a memorandum from the
Vice Commander AETC in response to the discussion draft (See Appendix C). The
memorandum states:
                   While most training missions permit off base billeting/housing, it is
                   AETC’s position that AETC must have UOQs [Unaccompanied Officer
                   Quarters] 9 available at Undergraduate Flying Training locations
                   (specifically for Introduction to Fighter Fundamentals/Specialized
                   Undergraduate Pilot Training and Combat Systems Officer courses 10 )
                   and remote technical training or highly technical training locations.
                   Examples are the Intelligence training at Goodfellow AFB and Space
                   training at Vandenberg AFB. This is needed to maintain flight safety,
                   guarantee crew rest, provide for a structured training regimen, assure
                   good order and discipline, and maintain personnel safety and security.

It is noteworthy that the statement says that “most training missions permit off base
billeting/housing . . .” This is the position that the Air Force took on housing Air Force
students at NAS Pensacola prior to BRAC 2005. Additionally, the memorandum states:

                   AETC’s experience over numerous years of training these officers
                   shows that the ability of the training program to maintain structured
                   curriculum and a safe, study-conducive environment after duty hours
                   directly impacts the quality and consistency of the student product.
                   This structure not only provides stability but also provides better
                   opportunity for students to accomplish pre/post duty day requirements
                   and access to study areas and materials in this fast-paced training
                   environment. Approximately 90 percent of these students are new to
                   the Air Force when they get to their training location and they have not
                   mastered the Airman’s “way of life.”

If AETC’s experience over numerous years of training has shown these factors to be
essential to the effective execution of its training programs, these factors should have
been well known to the Air Force when putting together the project submissions for
Recommendation 128. However, these comments do not take into consideration that the
current Air Force undergraduate navigator student population at NAS Pensacola is

9
    Unaccompanied officer quarters are identified in the DD Form 1391 title as bachelor housing.
10
    Combat Systems Officer is referred to as undergraduate navigator training in Recommendation 128.


                                                     13
housed off-base; the proposed bachelor housing facility will only house half of the Air
Force undergraduate navigator students in the program; and currently only half of the
undergraduate students at Randolph AFB are housed on-base.

The AETC memorandum further states:

               We view the loss of equivalent UOQ capability at Pensacola due to a
               failure of BRAC to fund the proposed project as detrimental to training
               safety and efficiency. We maintain it is in the best interest of the Air
               Force to retain this project as we require, to the maximum extent
               possible, that specified unaccompanied officer students use UOQ
               accommodations.

AETC Instruction 32-6004, “Unaccompanied Student Officer Quarters Management,”
May 1999, states as part of AETC’s “philosophy” that students are to reside on-base “to
the maximum extent quarters are available.” The instruction does not direct new
facilities be built; nor does it provide a justification for building a new facility to house
students if no on-base housing is available.

We question the ability of the proposed bachelor housing facility to resolve the issues of
training safety and efficiency. Only half of the Air Force undergraduate navigator
students will be housed on-base. The other half will be in off-base billeting/housing,
which, as stated in the AETC memorandum, is normal for most training missions. The
safety and efficiency factors should also apply to the students not able to get billeting on-
base. In our opinion, the Air Force did not adequately justify the bachelor housing as
mission essential. However, according to Public Law 101-510, “Defense Base Closure
and Realignment Act of 1990,” as amended, section 2905, “Implementation,” states DoD
may construct “replacement facilities” to realign any military installations. The Air
Force would be constructing a replacement facility for the 202 on-base rooms that existed
at Randolph AFB for unaccompanied student officers attending undergraduate navigator
training.

Conclusion
Although the Air Force did not adequately support the BRAC MILCON project for
bachelor housing, the Air Force is allowed to construct the bachelor housing as a
replacement facility under the BRAC law. However, the Air Force did not:

      perform an economic analysis comparing all feasible alternatives or obtain an
       economic analysis waiver,
      adequately justify the line item cost estimates with supporting documentation, or
      properly review and validate the DD Form 1391.

Nevertheless, the Air Force plans to construct an unsupported bachelor housing facility at
NAS Pensacola.




                                                 14
Management Comments on the Finding and Our
Response

Air Force Comments on the Finding
The Deputy Assistant Secretary of the Air Force (Installations) disagreed with the finding
and stated that Bachelor Housing Project TYMX073730 is valid, properly supported, and
in compliance with both BRAC and fiscal authorities. However the Deputy Assistant
Secretary did agree that certain project areas need to be improved.

The Deputy Assistant Secretary stated the Air Force adequately justified the need for
Bachelor Housing Project TYMX073730. AETC Instruction 32-6004 requires, to the
maximum extent possible, all unmarried student officers in their first duty assignment to
reside in on-base unaccompanied officer quarters. Further, the Deputy Assistant
Secretary stated that Bachelor Housing Project TYMX073730 is in accordance with
Public Law 101-510, which authorizes the Secretary of Defense to take actions such as
construction of replacement facilities to close or realign military installations.

The Deputy Assistant Secretary stated the Air Force evaluated all feasible alternatives to
Bachelor Housing Project TYMX073730. AETC conducted a site survey and multiple
reviews to determine that NAS Pensacola could not meet Air Force housing
requirements. The DoD IG did not report that the Air Force’s only alternative to new
construction, three NAS Pensacola buildings, was replaced with a single condemned
facility. The Deputy Assistant Secretary stated the renovation of the condemned facility
exceeded 70 percent of the replacement cost, therefore warranting construction of a
replacement facility. Off-base housing was not considered because of the AETC
Commander’s stance on off-base housing as stated in AETC Instruction 32-6004.

The Deputy Assistant Secretary acknowledged that the Air Force did not conduct a
formal economic analysis nor was the requirement waived by the Office of the Secretary
of Defense (Comptroller). An economic analysis did not occur because the Air Force and
Navy could not determine who was ultimately responsible for conducting the analysis.
The Deputy Assistant Secretary stated that the Air Force initiated a Request for Waiver in
July 2008.

The Deputy Assistant Secretary said that the Air Force adequately justified line item cost
estimates in the DD Form 1391. The Air Force prepared the cost estimate as required by
the DoD Facilities Pricing Guide; however, local market stresses were not considered
when calculating the average unit cost.

The Deputy Assistant Secretary stated that the Air Force properly reviewed and validated
the DD Form 1391. Validation included multiple reviews and substantiation through
visits and site surveys. Four separate levels of review were conducted for each BRAC




                                            15
project and were then recorded in the Air Force’s integrated Civil Engineering data
management system.

Our Response
As a result of management comments and a subsequent meeting with senior Air Force
and DoD IG officials, we revised draft Finding A to remove our statement that the
bachelor housing requirement was invalid; however, we continue to maintain that the Air
Force did not adequately support the project. We agree that Public Law 101-510, as
amended, section 2905, states that DoD may construct “replacement facilities” to realign
any military installations. The Air Force would be constructing a replacement facility for
the 202 on-base rooms that existed at Randolph AFB for unaccompanied student officers
attending undergraduate navigator training at NAS Pensacola. However, the Air Force
acknowledged that certain areas related to the project documentation and support need
improvement. Also, the Air Force is not relieved of the requirement to follow the DoD
Financial Management Regulation or Air Force Instructions when preparing and
submitting the request for the bachelor housing project.

We agree that the Air Force examined alternatives, including off-base housing, but did
not consider all feasible alternatives. As part of Air Force’s “disciplined and multi-
layered review process,” it prepared two site surveys and two Site Action Task Force
reports. The Air Force’s initial site survey identified off-base housing as an alternative.
However, the Air Force ultimately did not consider this alternative because of AETC’s
“philosophy” that students are to reside on-base “to the maximum extent quarters are
available.” The Air Force states it chose new construction over renovating an existing
building at NAS Pensacola because renovation exceeded 70 percent of the replacement
value. However, Air Force Instruction 32-1021 specifically states this 70 percent
threshold applies to minor unspecified construction and that the project must be
unforeseen and so urgent it cannot wait for the next MILCON programming. The Air
Force’s decision to choose new construction over renovation resulted in an estimated
increase of about $10 million.

The Air Force acknowledged it did not perform an economic analysis or obtain a proper
economic analysis waiver for this project. Therefore, it did not properly evaluate all
feasible alternatives. As executive agent, the Air Force was required to perform an
economic analysis in accordance with the DoD Financial Management Regulation and
Air Force Instructions. Further, the Air Force’s request for an economic analysis waiver
was not initiated until the DoD IG brought it to the Air Force’s attention. The economic
analysis waiver as required by Air Force Instruction 65-501 was not approved by the
Office of the Secretary of Defense.

We disagree that the Air Force properly prepared the cost estimates as prescribed in the
DoD Pricing Facilities Guide and supplemental historical costs. The Air Force did not
adequately justify the line item cost estimates in the DD Form 1391. The Air Force did
not justify the primary line item cost estimate (bachelor housing line item) that accounted
for approximately 75 percent of the total project cost with historical construction data or
the DoD Pricing Facilities Guide. The Air Force supported the user needs but not the


                                             16
unit costs for this line item. Specifically, the Air Force did not support the Navy
Bachelors Quarters data (historical cost) it cited in the DD Form 1391. In addition, the
Air Force incorrectly calculated this line item’s unit cost using the DoD Pricing Facilities
Guide because it ignored the “area cost factor” for the Pensacola area. The bachelor
housing line item also impacted other primary and supporting line items that were
calculated as percentages of this line item. These line items accounted for an additional
19 percent of the project cost.

Although the Air Force identified several alternatives to new construction in its site
surveys and Site Action Task Force visits, the Air Force did not perform a preliminary or
full economic analysis comparing these alternatives in accordance with DoD Financial
Management Regulation 7000.14-R or Air Force Instructions. The Air Force did not
properly review and validate the DD Form 1391 in accordance with Air Force
Instructions. Despite our requests and the Air Force’s repeated assertions, the Air Force
has not provide documentation demonstrating that a proper review and validation had
taken place in accordance with Air Force Instructions. As such, the data on the
DD Form 1391 are unreliable and the proposed facility may not be the most cost-
effective means of satisfying the requirement.

Recommendations, Air Force Comments, and Our
Response
Deleted Recommendation and Renumbered Recommendation. As a result of
management comments and a subsequent meeting with senior Air Force and DoD IG
officials, we have revised draft Finding A and deleted draft Recommendation A.1. Draft
Recommendations A.2.a. and A.2.b. have been renumbered as Recommendations A.1.
and A.2.

A. We recommend that the Deputy Assistant Secretary of the Air Force
(Installations) for future Base Realignment and Closure military construction
projects:

         1. Ensure that each proposed project is a valid Base Realignment and
            Closure requirement.

         2. Follow DoD and Air Force requirements by conducting an economic
            analysis when a project is first considered, justifying the user needs and
            unit costs in the DD Form 1391 with supporting documentation, and
            properly reviewing and validating the DD Form 1391.

Air Force Comments on Recommendations A.1. and A.2.
The Air Force agreed with the recommendations and stated it would properly validate
each proposed BRAC project, perform an economic analysis, provide supporting
documentation for the DD Form 1391, and properly review and validate the DD
Form 1391 and provide formal guidance to the Air Force major command Base



                                             17
Realignment and Closure offices by November 2008. Subsequently, the Air Force
provided documentation that it verbally reinforced the requirements at its semi-annual
Base Realignment and Closure Program Management Review in November 2008 and
reinforced the economic analysis requirement in an e-mail in December 2008.

Our Response
The Air Force comments were responsive. Air Force personnel informed us that they did
verbally reinforce the requirements at their semi-annual Base Realignment and Closure
Program Management Review in November 2008 but did not notify us as of the date of
this report that they issued formal guidance. The DoD IG Audit Followup office will
address whether Air Force complied with its response in their process. No additional
comments are required.




                                           18
Finding B. Hangar and Instruction Facility
Projects
The Air Force did not provide adequate support for the BRAC MILCON project data in
Hangar project TYMX073710 and Instruction Facility project TYMX073720
DD Forms 1391 for BRAC Recommendation 128 Undergraduate Navigator Training.
The support was inadequate because the Air Force did not:

        perform an economic analysis or obtain a waiver,
        adequately justify the line item cost estimates, or
        properly review and validate the DD Forms 1391.

As a result, the Air Force cannot assure these facilities are the most cost-effective
alternatives for these two projects. Nevertheless, the Air Force awarded a contract for
both the hangar and instruction facility projects on March 4, 2008, for an estimated cost
of $45.8 million for new construction that did not reduce excess capacity, eliminate
redundancy, or enhance jointness.

Support for the Projects
The Air Force did not follow the DoD Financial Management Regulation 7000.14-R or
Air Force Instructions to ensure the hangar and instruction facility projects were
supported and that these facilities were the most cost-effective alternatives. The Air
Force considered renovation and additions to existing facilities along with new
construction for the hangar and instruction facility projects, but ultimately decided on
new construction without performing an economic analysis. The Air Force also did not
obtain an economic analysis waiver. The Air Force did not support the user needs and
unit costs used to compute the line items cost estimates in the DD Forms 1391.
Furthermore, the Air Force did not provide adequate support demonstrating the
DD Forms 1391 were properly reviewed and validated. Despite these problems, the Air
Force awarded a contract for these projects on March 4, 2008. The Air Force stated that
any joint training proposal requiring modification to the planned facilities would
jeopardize BRAC MILCON funding and upset the required timeline to start training in
May 2010 [at NAS Pensacola].

Economic Analysis
The Air Force did consider existing facilities, but did not perform a preliminary or full
economic analysis. Nor did the Air Force obtain a waiver 11 for the hangar and
instruction facility projects for Recommendation 128. The Air Force prepared two site
surveys and two Site Action Task Force reports, and the Navy prepared a BRAC Program


11
  After our July 2008 exit conference, the Air Force attempted to request an economic analysis waiver
more than 1 year after the DD Forms 1391 were prepared. AFI 65-501 states the request for waiver is not
valid until the request is approved by the Office of the Secretary of Defense Comptroller. This request for
waiver was never approved by the Office of the Secretary of Defense Comptroller.


                                                    19
Relocation Study. However, the information contained in these reports was never
consolidated into one document. The Air Force considered these documents individually,
but did not consider the data as a whole to determine the project requirements. The Air
Force also changed the project requirements to include the results of the latest report. For
example, the Air Force initially considered renovation and additions to existing facilities
along with new construction for the hangar and instruction facility projects, but as each
report was released, the project requirements transitioned to greater and greater use of
new construction, eliminating the consideration of existing facilities altogether. 12
Eventually, the Air Force configurations became totally separate, Air Force-only facilities
contrary to the justifications submitted with the Secretary of Defense’s recommendation
to the BRAC 2005 Commission.

The Air Force was unable to provide a preliminary analysis prepared prior to the
development of the DD Forms 1391 or obtain an economic analysis waiver. The
DD Forms 1391 state that a preliminary analysis of reasonable options was accomplished
by comparing alternatives of status quo, renovation, addition/alteration, and new
construction. AFI 65-501, “Economic Analysis,” states that when a full economic
analysis is not performed, it is appropriate to complete a waiver or exemption.
AFI 65-501 also states that a financial analysis must be part of program planning when a
project is first considered. The site surveys, Site Action Task Force reports, and
relocation study did not contain a cost-benefit analysis that compared each alternative
from a cost standpoint. As a result, the Air Force did not follow AFI 65-501, and
therefore, cannot determine whether the proposed facilities are the most cost-effective
alternatives.

Cost Estimates
The Air Force did not provide adequate support for the line item cost estimates 13 in the
DD Forms 1391 for the hangar and instruction facility projects.

According to AFI 32-1021, Chapters 2.2.3 and 3.3.4:

                 When it is determined a facility shall be constructed or upgraded, the
                 Base Civil Engineer (BCE) will prepare and submit DD Forms 1391,
                 and all other applicable documentation . . . Documentation (typically
                 obtained from facility users) shall include a fully justified, indisputable
                 case for accomplishing the project.

                 Accurate project cost estimates are essential to successful MILCON
                 project development and execution. Cost estimates must be closely
                 scrutinized to ensure they are in-line with the OSD Pricing Guide or
                 fully justified with historical cost data.




12
   One exception is that the hangar project includes minor expansions to an existing Navy parachute and
engine shop.
13
   Line item cost estimates are calculated by multiplying the user needs by the unit costs. Each DD
Form 1391 has several line item cost estimates that add up to the project cost.


                                                    20
The Air Force did not provide adequate support for the cost estimates. We requested
supporting documentation from the Air Force and Navy for the line item user needs and
unit costs that are included in the justification book and updated versions of the
DD Forms 1391. Navy officials stated that the Air Force should have all of the project
documentation. Air Force officials provided documentation that did not adequately
support the line item cost estimates. The lack of documentation provided for subsequent
requests demonstrated that the Air Force did not have appropriate documentation to
support the line item cost estimates in either version of the DD Forms 1391. Line item
cost estimates are only supported if both the user needs and unit costs are supported.

User Needs
The Air Force did not provide adequate support for user needs 14 in the DD Forms 1391
for the hangar and instruction facility projects. The Air Force provided spreadsheets that
broke out some of the user needs in the DD Forms 1391, allocating the number of
personnel and gross area allowed per person to each item. The spreadsheets also partially
identified the equipment items used to calculate user needs. We were able to locate most
of the supporting documentation for the gross area allowed per person/item, but were
unable to obtain support for the number of personnel and certain equipment items. In
addition, the Air Force was unable to support any of the user needs in the DD
Forms 1391 not included in the spreadsheets.

Because the Air Force did not provide support for each personnel number and equipment
item, we could not determine the actual user needs. These calculations are dependent
upon supported personnel and equipment numbers. Therefore, the unsupported user
needs in the DD Forms 1391 may be inaccurate.

Unit Costs
The Air Force was unable to provide adequate documentation to support the unit costs in
both versions of the DD Forms 1391 for the hangar and instruction facility projects.
However, we were able to calculate a small portion of the unit costs based on historical
cost data in the Unified Facilities Criteria 3-701-06, DoD Facilities Pricing Guide,
March 30, 2006, and the Historical Air Force Construction Cost Handbook, February
2005. In the cases where we could calculate the unit cost, the Air Force understated or
overstated the unit costs in both versions of the DD Forms 1391.




14
   For personnel, the user needs are calculated by multiplying the number of personnel times the gross area
allowed per person. For equipment (for example, aircraft), the user needs are calculated by multiplying the
number of equipment items by the gross area allowed per item.


                                                    21
Table 1 provides examples of our unit cost calculations and the variances from the
DD Forms 1391, dated February 2007, unit costs.

                                Table 1. Unit Cost Calculations
         Line Item         DD Form DoD Facilities Historical Air Force                          Variance*
                           1391 Unit Pricing Guide        Construction Cost
                              Costs                           Handbook
                           (February
                              2007)
Hangar                      $2,626.26     $2,015.97             N/A                              $610.29
Parachute shop               1,907.27      2,260.71             N/A                              -353.44
 expansion
Applied instruction           2,123.00           1,559.01                    N/A                   563.99
 facility
Simulator space               2,109.00             N/A                   $2,897.82               -788.82
 *
   The Air Force was unable to support the user needs, and as a result, we were unable to calculate the total
variance for the particular line item.

Review and Validation
The Air Force did not properly review and validate the DD Forms 1391 for the hangar
and instruction facility projects to ensure they were accurate and supported. As a result,
the data on the DD Forms 1391 may be inaccurate, and the proposed projects may not be
the most cost-effective means of satisfying the requirement. The following Air Force
Instructions outline the requirements for a proper review and validation.

         AFI 32-1021 requires installation commanders to review and validate installation
          MILCON facility requirements. The instruction also requires the Air Force to
          validate each MILCON project by verifying the requirement that created the need
          for the proposed project and confirming the proposed project is the most cost-
          effective means of satisfying the requirement.
         AFI 32-1032 requires project documents (DD Form 1391) to be signed by an
          appropriate approving official.

The Air Force did not provide DD Forms 1391 that included approving signatures or any
other evidence demonstrating that a proper review and validation was performed. As the
executive agent for the hangar and instructional facility projects, the Air Force is
responsible for ensuring that the DD Forms 1391 are properly reviewed and validated.
The issues related to the proper review and validation are addressed in greater detail in
Finding A.

Conclusion
The Air Force was unable to support the military construction project data in the
DD Forms 1391 for the hangar and instruction facility projects. The Air Force
considered the renovation of and additions to existing facilities, but ultimately decided on
new construction without performing an economic analysis or obtaining a waiver. The


                                                     22
Air Force did not support the line item cost estimates or properly review and validate in
the DD Forms 1391. The Air Force cannot assure that the proposed facilities are the best
and most cost-effective alternative for meeting the need of relocating the undergraduate
navigator training to NAS Pensacola. Nevertheless, the Air Force awarded a contract for
both the hangar and instruction facility projects on March 4, 2008, for an estimated cost
of $45.8 million.

Management Comments on the Finding and Our
Response

Air Force Comments on the Finding
The Deputy Assistant Secretary of the Air Force (Installations) states the circumstances
for this finding are exactly the same as detailed in their comments to Finding A. Please
see Finding A, “Management Comments on the Finding and Our Response” for greater
detail (page 15).

Our Response
Although the finding for hangar and instruction facility projects was slightly different
from Finding A in that we did not originally state in the draft that the projects were
invalid other than for the bachelor housing project, we did state that the projects were not
adequately supported. We continue to maintain that the projects were not adequately
supported as identified in our response to Finding A as well as additional comments here.
The Air Force identified feasible alternatives for the facility projects. However, the Air
Force did not perform the required economic analysis or obtain an economic analysis
waiver. Instead, the Air Force asserts it followed a disciplined and multi-layered review
process prosecuted through AETC, the Air Force BRAC Program Management Office,
and the Office of the Civil Engineer. Despite the Air Force’s assertion that it followed a
disciplined and multi-layered review process, the Air Force did not follow Air Force
Instructions and therefore cannot say with assurance whether the proposed hangar and
instruction facilities are the most cost-effective alternatives.

The Air Force did not provide adequate support for the line item cost estimates in the
DD Forms 1391 for the hangar and instruction facility projects. Therefore, the Air Force
did not properly prepare the cost estimates in accordance with Air Force Instructions.

Additionally, the Air Force did not properly review and validate the DD Forms 1391 in
accordance with Air Force Instructions, or provide documentation demonstrating a proper
review and validation had taken place. As such, the data on the DD Forms 1391 are
unreliable and the proposed facilities may not be the most cost-effective means of
satisfying the requirement.




                                            23
Recommendation, Air Force Comments, and Our
Response
B. We recommend that the Deputy Assistant Secretary of the Air Force
(Installations) for future Base Realignment and Closure military construction
projects follow the DoD Financial Management Regulation and Air Force
Instructions by conducting an economic analysis when a project is first considered,
justifying the user needs and unit costs in the DD Form 1391 with adequate
supporting documentation, and properly reviewing and validating the
DD Form 1391.

Air Force Comments on Recommendation B.
The Air Force agreed with the recommendation and stated that for future Base
Realignment and Closure military construction projects, the Air Force will follow DoD
Financial Management Regulation and Air Force Instructions, conduct an economic
analysis when a project is first considered, justify user needs and unit costs in the DD
Form 1391 with adequate supporting documentation, and properly review and validate
the DD Forms 1391. The Air Force was to reinforce these requirements in formal
guidance to Air Force major command Base Realignment and Closure offices by
November 2008. Subsequently, the Air Force provided documentation that it verbally
reinforced the requirements at its semi-annual Base Realignment and Closure Program
Management Review in November 2008 and followed it up with an e-mail to reinforce
the economic analysis requirement in December 2008.

Our Response
The Air Force comments were responsive. Air Force personnel informed us that they did
verbally reinforce the requirements at their semi-annual Base Realignment and Closure
Program Management Review in November 2008 but did not notify us as of the date of
this report that they issued formal guidance. The DoD IG Audit Followup office will
address whether Air Force complied with its response in their process. No additional
comments are required.




                                            24
Planned Undergraduate Navigator Training
and Facilities Will Not Enhance Jointness
When the Air Force relocates the undergraduate navigator training program from
Randolph AFB to NAS Pensacola, future undergraduate navigator training will be
collocated and not be joint. Both the Air Force and the Navy had many joint aspects that
could be found throughout their undergraduate navigator training programs at Randolph
AFB and NAS Pensacola. Currently, however, the Air Force no longer has any joint
navigator training with the Navy at Randolph AFB. The Navy continues to have joint
navigator training with the Air Force at NAS Pensacola. The Secretary of Defense’s
Justification for BRAC Recommendation 128 Undergraduate Navigator Training states
that implementation of the recommendation will:

        reduce excess capacity,
        eliminate redundancy,
        enhance jointness, and
        improve military value.

Prior to BRAC 2005, the Air Force and the Navy planned to consolidate all
undergraduate navigator training at NAS Pensacola, and the Air Force focused on a new
joint training program with the Navy. The Air Force planned to share primary and
intermediate training platforms and simulators, share command, and use a common
training syllabus with the Navy. As part of the joint training, the Air Force proposed new
construction, renovation, and additions to existing Navy training facilities.

As BRAC 2005 was in the process of being developed, the Navy and Air Force changed
their intermediate training platforms and simulator requirements. 15 Consequently, the
Air Force is collocating, rather than consolidating, its undergraduate navigator training at
NAS Pensacola and is developing a separate training syllabus. During this time and after
BRAC 2005 became law, the Air Force moved its proposed hangar and instruction
facility to locations separate from the existing Navy facilities. The Air Force hangar and
instruction facility are now separate, Air Force-only facilities and are new construction. 16




15
   The Navy and Air Force primary training platforms remain the same aircraft; however, the Navy uses a
different version of the aircraft (for example, the cockpit configuration).
16
   One exception is that the hangar project includes minor expansions to an existing Navy parachute and
engine shop.


                                                   25
Tables 2 and 3 are comparisons of the current and future undergraduate navigator training
program and its facilities.

                     Table 2. Current Undergraduate Navigator Training
                               Geographically Separated/Joint Training
              Randolph Air Force Base                      Naval Air Station Pensacola
                               nd
           Two squadrons: 562 and 563      rd
                                                       Three squadrons: VT-4, VT-10, and
              nd
           562 squadron was a rotating                    VT-86
           command between the Air Force and           VT-10 was a joint-commanded
           Navy*                                          squadron
              rd
           563 is an Air Force squadron with           VT-4 and VT-86 are Navy squadrons
           Air Force leadership and instructors        Instructors and students from the
          Air Force and Navy undergraduate               Navy, Air Force, Marine Corps, and
           navigators train with international            international countries can be found
           students*                                      throughout the squadrons
          Use common facilities and aircraft*         Share facilities and aircraft
*
    As of the end of FY 2008, the 562nd stopped having a rotating command or training Navy navigators.

                 Table 3. Future Undergraduate Navigator Training
                     Geographically Collocated/Service-Specific Training
Air Force at Naval Air Station Pensacola             Navy at Naval Air Station Pensacola
     Service-specific Air Force squadrons         Service-specific Navy squadrons
     No joint or rotating commands                No joint commands
     Service-specific Air Force                   Service-specific Navy undergraduate
       undergraduate navigator training               navigator training pipeline with
       pipeline with no international students        international students
     Service-specific BRAC MILCON-                Service-specific facilities to conduct
       funded facilities to conduct training          training
     Similar primary training aircraft            Similar primary training aircraft
     Different intermediary training              Different intermediary training
       aircraft                                       aircraft


Excerpts from 2007 correspondences between the Chief of Naval Air Training and Air
Education Training Command illustrate Navy and Air Force differences.

                   From the DEPARTMENT OF THE NAVY, CHIEF OF NAVAL
                   AIR TRAINING to the DEPARTMENT OF THE AIR FORCE,
                   AIR EDUCATION AND TRAINING COMMAND:

                   As we move toward the BRAC directed consolidation of
                   Undergraduate Military Flight Officer (UMFO) training at NAS
                   Pensacola, I seek your concurrence with the plan to conduct joint
                   primary UMFO flight training utilizing the T-6A. . . . I offer the
                   following vision for your consideration. We intend to consolidate
                   VT-4 and VT-10 into a single squadron. We propose that both that


                                                     26
               squadron and the 562nd FTS [Flying Training Squadron] conduct joint
               UMFO training, alternating USN [United States Navy] and USAF
               officers in command of each. We further recommend intermingling the
               instructors and students of both services in each squadron.


               From the DEPARTMENT OF THE AIR FORCE, AIR
               EDUCATION TRAINING COMMAND to the DEPARTMENT
               OF THE NAVY, CHIEF OF NAVAL AIR TRAINING:

               . . . there remain differences in CSO and Naval Flight Officer service-
               unique requirements . . . As you know the planned facilities to support
               CSO training operations, and the aircraft & simulator capabilities we
               bring to NAS Pensacola are sized to meet AF [Air Force]-only
               requirements. . . . any joint training proposal requiring modification to
               the planned facilities would jeopardize BRAC MILCON funding and
               upset the required timeline to start training in May 2010.

The differences cited above have resulted in a lack of focus to “Train as we fight:
jointly” as stated in the Secretary of Defense Justification for Recommendation 128.
According to the Air Force, the Navy’s changes in training platforms do not meet the
needs of the Air Force’s training philosophies. However, according to the Navy, the
primary training platforms and syllabi are not that different and offer future opportunities
for jointness. Further, the Air Force’s decision to build an Air Force-only hangar and
instruction facility impedes the two Services’ abilities to reestablish a joint training
environment at NAS Pensacola.

By not being able to resolve the inter-Service conflicts over training platforms and
philosophies, the jointness and the synergies that did exist will be lost. The positive
results of the recent joint training approach will take years to recreate in this collocated
approach. With different training platforms and different training philosophies, the
chance that jointness will actually occur is remote.

Management Comments on Joint Training and Our
Response
Navy Comments on Joint Training
Although not required to comment, the Assistant Secretary of the Navy (Installations and
Environment) provided comments to this section stating the Navy continues to seek joint
training opportunities with the Air Force and does not agree that the Navy and Air Force
are unable to resolve inter-Service conflicts over training platforms and philosophies.

Our Response

We acknowledge the similarities of the Navy and Air Force primary training platforms;
however, we disagree that the Air Force is committed to joint training. As it stands,
when the Air Force relocates to NAS Pensacola, the squadrons, commands, training
pipeline, aircraft, and facilities will be Air Force-specific.


                                                 27
Inherently Governmental Functions
Throughout the course of the audit we were directed to Air Force contractors as the Air
Force experts and providers of documentation rather than Air Force Government
officials. We are concerned that some of these contractor personnel may be performing
inherently governmental functions rather than functioning in a support capacity. For
example:

              The AETC primary contact for all requested information on the three
               BRAC MILCON projects was a contractor. Prior to our exit conference
               with the Air Force in July 2008, the information provided did not show
               any evidence that it was reviewed and approved by a Government
               employee prior to being provided.
              When we scheduled the meeting to obtain Air Force responses to the
               discussion draft and excluded contractors based on Federal Acquisition
               Regulation (FAR) Section 7.503 (c) (20), “Policy,” we were told that the
               Government employees in attendance would not be able to adequately
               answer our questions and that any additional information would have to be
               obtained from the contractors.
              Contractors were reviewing and validating DD Form 1391 project
               documentation that should have been approved by Government
               employees.

The FAR addresses inherently governmental functions in several sections.

               Federal Acquisition Regulation (FAR) Section 2.101, “Definitions,”
               defines an inherently governmental function as “a function that is so
               intimately related to the public interest as to mandate performance by
               Government employees.” Additionally, it states that “an inherently
               governmental function involves, among other things, the interpretation
               and execution of the laws of the United States so as to exert ultimate
               control over the acquisition, use, or disposition of the property, real or
               personal, tangible or intangible, of the United States, including the
               collection, control, or disbursement of Federal funds.”

               FAR Section 7.503(c) provides a list of examples of functions
               considered to be inherently governmental functions. It specifically
               states that “the drafting of Congressional testimony, responses to
               Congressional correspondence, or agency responses to audit reports
               from the Inspector General, the Government Accountability Office, or
               other Federal audit entity” is an inherently governmental function.

In addition, FAR Section 37.114, “Special Acquisition Requirements,” states:
               Contracts for services which require the contractor to provide advice,
               opinions, recommendations, ideas, reports, analyses, or other work
               products have the potential for influencing the authority, accountability,
               and responsibilities of Government officials. These contracts require



                                                  28
              special management attention to ensure that they do not result in
              performance of inherently governmental functions by the contractor
              and that Government officials properly exercise their authority.
              Agencies must ensure that -- (a) A sufficient number of qualified
              Government employees are assigned to oversee contractor activities,
              especially those that involve support of government policy or decision
              making. During performance of service contracts, the functions being
              performed shall not be changed or expanded to become inherently
              governmental. (b) A greater scrutiny and an appropriate enhanced
              degree of management oversight is exercised when contracting for
              functions that are not inherently governmental but closely support the
              performance of inherently governmental functions (see 7.503(c)). (c)
              All contractor personnel attending meetings, answering Government
              telephones, and working in other situations where their contractor
              status is not obvious to third parties are required to identify themselves
              as such to avoid creating an impression in the minds of members of the
              public or Congress that they are Government officials, unless, in the
              judgment of the agency, no harm can come from failing to identify
              themselves. They must also ensure that all documents or reports
              produced by contractors are suitably marked as contractor products or
              that contractor participation is appropriately disclosed.

Further, Office of Management and Budget, Policy Letter 92-1, dated September 23,
1992, restates and elaborates on FAR Section 7.503:

              (c) Drafting of Congressional testimony, responses to
              Congressional correspondence, and agency responses to audit
              reports from an Inspector General, the General Accounting Office,
              or other Federal audit entity. While the approval of a Government
              document is an inherently governmental function, its drafting is not
              necessarily such a function. Accordingly, in most situations the drafting
              of a document, or portions thereof, may be contracted, and the agency
              should review and revise the draft document, to the extent necessary, to
              ensure that the final document expresses the agency's views and
              advances the public interest. However, even though the drafting
              function is not necessarily an inherently government function, it may be
              inappropriate, for various reasons, for a private party to draft a
              document in particular circumstances. Because of the appearance of
              private influence with respect to documents that are prepared for
              Congress or for law enforcement or oversight agencies and that may be
              particularly sensitive, contractors are not to be used for the drafting of
              Congressional testimony; responses to Congressional correspondence;
              or agency responses to audit reports from an Inspector General, the
              General Accounting Office, or other Federal audit entity.

Contractors have been given authority over several functions in the Air Force BRAC
MILCON process for the projects reviewed that appear to be inherently governmental
functions as defined in the FAR. Examples of these positions and functions include the
following.

      At AETC, the program manager for the relocation of undergraduate navigator
       training from Randolph AFB to NAS Pensacola and the civil engineering program
       manager (construction/facilities) for the three BRAC MILCON projects are



                                                 29
       contractor employees. When the audit was initiated, the Chief of the AETC
       BRAC office informed us that contractors would provide all the information we
       needed to complete the audit.
      Prior to our exit conference in July 2008, the Chief of the AETC BRAC office,
       who said he was the sole Governmental representative for these projects, appeared
       to have limited knowledge of the required project documentation and said he
       could not adequately answer our questions concerning the discussion draft
       without the presence of contractors.
      At the Air Force BRAC Program Management Office, the program manager for
       the three Air Force BRAC MILCON projects is a contractor and appeared
       primarily responsible for the management and oversight of these projects.
      During our exit conference conducted in July 2008 at the Air Force BRAC
       Program Management Office, neither the director nor other Government officials
       were able to directly answer questions concerning the discussion draft without the
       presence of contractors. The director said the information obtained during the
       meeting concerning the BRAC MILCON projects would be limited.
      After our exit conferences with AETC and Air Force BRAC Program
       Management Office, we received screen prints of the project approvals that were
       said to demonstrate review and validation of the BRAC MILCON projects.
       However, all of the names listed in the screen prints were those of contractors.

Air Force personnel have said that the great increase in the use of contractors to perform
functions formerly done by Government employees has been due to the shortage of
Government personnel and funding. In light of Findings A and B, we are concerned the
three BRAC MILCON projects have not received the appropriate Government
supervision and oversight by AETC and the Air Force BRAC Program Management
Office to ensure that they were adequately supported and that the most cost-effective
alternatives were selected.

Based on the guidance in the FAR, we believe that the supervision/oversight and
approval of these BRAC MILCON projects are inherently governmental functions and
should not be carried out by contractors.




                                            30
Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through October 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the FY 2008 and FY 2009 BRAC 2005 MILCON budget data submitted by
the DoD Components in response to the recommendations and identified BRAC
MILCON projects involving more than one military Service. We coordinated with each
Service’s audit organization and the Government Accountability Office (GAO) to avoid
duplication of effort. We judgmentally selected “Military Construction Project Data”
DD Forms 1391 for Air Force projects TYMX073710, “BRAC – USAF Navigator
Training Hangar”; TYMX073720, “BRAC – CSO Applied Instruction Facility”; and
TYMX073730, “BRAC – Combat Systems Officer (CSO) Bachelor Housing,” estimated
at $80 million, for our review. In making our selections, we considered estimated dollar
values, project objectives, and potential for identifying and correcting budget problems
before projects are implemented. We conducted this audit to review the accuracy of the
budget data for these three projects. We were limited in our review of line item cost
estimates because the Air Force did not provide adequate support documentation.

We reviewed applicable DoD Financial Management Regulations, Air Force guidance,
and historical cost data pertaining to BRAC MILCON cost estimating, economic
analysis, review, and validation, and required supporting documentation.

      FAR Section 2.101, “Definitions,” April 22, 2008;
      FAR Section 7.503, “Policy,” March 31, 2008;
      FAR Section 37.114, “Special Acquisition Requirements,” September 17, 2008;
      Office of Management and Budget, Policy Letter No. 92-1, September 23, 1992;
      DoD Financial Management Regulation 7000.14-R, Volume 2B, Chapter 6,
       “Military Construction/Family Housing Appropriations,” June 2006;
      DoD Financial Management Regulation 7000.14-R, Volume 2B, Chapter 7, “Base
       Realignment and Closure Appropriations,” June 2006;
      Air Force “Unaccompanied Housing Design Guide,” January 2006;
      Air Force Instruction 65-501, “Economic Analysis,” November 10, 2004;
      Air Force Instruction 32-1032, “Planning and Programming Appropriated Funded
       Maintenance, Repair, and Construction Projects,” October 15, 2003;
      Air Force Instruction 32-1021, “Planning and Programming Military Construction
       (MILCON) Projects,” January 24, 2003;
      Air Force Handbook 32-1084, “Facility Requirements,” September 1, 1996;
      Headquarters Air Education and Training Command “Squadron
       Operations/Aircraft Maintenance Unit” Standards;


                                           31
      Unified Facilities Criteria 3-701-06, DOD Facilities Pricing Guide, March 30,
       2006;
      Historical Air Force Construction Cost Handbook, February 2005; and
      Air Education and Training Command Instruction 32-6004, “Unaccompanied
       Student Officer Quarters Management,” May 1999.

In addition, we reviewed Public Law 101-510, “Defense Base Closure and Realignment
Act of 1990,” as amended, section 2905 to determine BRAC implementation guidance.

We visited the losing site (Randolph AFB, Texas) and gaining site (NAS Pensacola,
Florida) and requested documentation to answer the overall and specific audit objectives
for the selected projects. During site visits to Randolph AFB and NAS Pensacola, we
held extensive interviews with program managers, MILCON civil engineers, and
squadron commanders and officers. We also toured existing and proposed facility
locations to help identify the current and future undergraduate navigator training program
user needs.

We compared the budget data submitted on the DD Forms 1391 to applicable criteria to
determine whether the projects were accurate, valid, and supported, and whether the
BRAC analysis considered existing facilities. For each project we:
        compared the approved business plan, revised business plan, justification
          book DD Forms 1391, revised DD Forms 1391, and Recommendation 128 to
          each other;
        requested supporting documentation for both versions of the DD Forms 1391
          line items;
        requested related economic analyses; and
        requested documentation supporting the review and validation.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                           32
Appendix B. Prior Coverage
During the last 5 years, GAO, DoD IG, the Army Audit Agency, the Naval Audit
Service, and the Air Force Audit Agency have issued 57 reports discussing the Defense
BRAC MILCON. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army, Navy, and Air Force reports can
be accessed at http://www.hqda.army.mil/aaaweb, http://www.hq.navy.mil/navalaudit,
and http://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-08-159, “Military Base Realignments and Closures: Cost
Estimates Have Increased and Are Likely to Continue to Evolve,” December 2007

GAO Statement No. GAO-05-905, “Military Bases: Observations on DoD’s 2005 Base
Realignment and Closure Selection Process and Recommendations,” July 18, 2005

GAO Statement No. GAO-05-614, “Military Base Closures: Observations on Prior and
Current BRAC Rounds,” May 3, 2005

GAO Report No. GAO-05-138, “Military Base Closures: Updated Status of Prior Base
Realignments and Closures,” January 2005

DoD IG

DoD IG Audit Report No. D-2009-022, “Base Realignment and Closure 2005 Military
Construction Project to Consolidate and Relocate Service Media Activities to Fort
Meade, Maryland,” November 14, 2008

Army

Army Audit Agency Report No. A-2008-0224-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Forces Command and U.S. Army Reserve
Command Headquarters Building, Fort Bragg, North Carolina,” August 21, 2008

Army Audit Agency Report No. A-2008-0214-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Hamilton, New
York,” August 21, 2008

Army Audit Agency Report No. A-2008-0210-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, East Houston, Texas,”
August 6, 2008




                                          33
Army Audit Agency Report No. A-2008-0205-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Missoula, Montana,”
August 4, 2008

Army Audit Agency Report No. A-2008-0125-ALI, “Base Realignment and Closure
2005 Construction Requirements: Vehicle Maintenance Complex, Fort Bragg, North
Carolina,” July 31, 2008

Army Audit Agency Report No. A-2008-0194-ALI, “Base Realignment and Closure
2005 Construction Requirements: Headquarters, 1st Armor Training Brigade, Fort
Benning, Georgia,” July 28, 2008

Army Audit Agency Report No. A-2008-0184-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Materiel Command Headquarters,
Redstone Arsenal, Alabama,” July 23, 2008

Army Audit Agency Report No. A-2008-0124-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center Greenlief Training Site,
Hastings, Nebraska,” July 9, 2008

Army Audit Agency Report No. A-2008-0183-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Scranton,
Pennsylvania,” July 7, 2008

Army Audit Agency Report No. A-2008-0181-ALI, “Base Realignment and Closure
2005 Construction Requirements: Restationing the Air Defense Artillery School, Fort
Sill, Oklahoma,” July 2, 2008

Army Audit Agency Report No. A-2008-0171-ALI, “Base Realignment and Closure
2005 Construction Requirements: Combat Aviation Brigade Complex, Fort Bliss,
Texas,” June 23, 2008

Army Audit Agency Report No. A-2008-0126-ALI, “Base Realignment and Closure
2005 Construction Requirements: 4th Brigade Combat Team Complex, Fort Bragg,
North Carolina,” June 9, 2008

Army Audit Agency Report No. A-2008-0130-ALO, “Base Realignment and Closure
2005 Construction Requirements: Consolidated Health/Dental Clinic, Fort Riley,
Kansas,” May 27, 2008

Army Audit Agency Report No. A-2008-0131-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, McAlester Army
Ammunition Plant, Oklahoma,” May 13, 2008




                                          34
Army Audit Agency Report No. A-2008-0129-ALO, “Base Realignment and Closure
2005 Construction Requirements: Airfield Pavement Repair, Fort Riley, Kansas,”
May 13, 2008

Army Audit Agency Report No. A-2008-0128-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Totten, New
York,” May 12, 2008

Army Audit Agency Report No. A-2008-0122-ALI, “Base Realignment and Closure
2005 Construction Requirements: First Brigade Combat Team Complex, Fort Bliss,
Texas,” May 5, 2008

Army Audit Agency Report No. A-2008-0112-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Middletown,
Connecticut,” April 29, 2008

Army Audit Agency Report No. A-2008-0117-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Grand Prairie Reserve
Complex, Texas,” April 23, 2008

Army Audit Agency Report No. A-2008-0095-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Cedar Rapids, Iowa,”
March 20, 2008

Army Audit Agency Report No. A-2008-0088-ALI, “Base Realignment and Closure
2005 Construction Requirements: Dental Clinic, Fort Bliss, Texas,” March 18, 2008

Army Audit Agency Report No. A-2008-0078-ALO, “Base Realignment and Closure
2005 Construction Requirements: Infantry Brigade Combat Team Complex, Fort Knox,
Kentucky,” March 3, 2008

Army Audit Agency Report No. A-2008-0066-ALI, “Base Realignment and Closure
2005 Construction Requirements: Division Headquarters, Fort Carson, Colorado,”
February 13, 2008

Army Audit Agency Report No. A-2008-0064-ALI, “Base Realignment and Closure
2005 Construction Requirements: Brigade Combat Team, Fort Carson, Colorado,”
February 13, 2008

Army Audit Agency Report No. A-2008-0063-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Reserve Center, Fort Hunter Liggett,
California,” February 12, 2008

Army Audit Agency Report No. A-2008-0060-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Paducah, Kentucky,”
February 8, 2008



                                         35
Army Audit Agency Report No. A-2008-0055-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Chaffee,
Arkansas,” February 4, 2008

Army Audit Agency Report No. A-2008-0054-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Vancouver,
Washington,” February 4, 2008

Army Audit Agency Report No. A-2008-0039-ALO, “Base Realignment and Closure
2005 Construction Requirements: Division Headquarters and Sustainment Brigade
Headquarters, Fort Riley, Kansas,” January 14, 2008

Army Audit Agency Report No. A-2008-0038-ALO, “Base Realignment and Closure
2005 Construction Requirements: Army Reserve Southeast Regional Readiness
Sustainment Command, Fort Jackson, South Carolina,” January 9, 2008

Army Audit Agency Report No. A-2008-0024-ALO, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Reserve Northwest Regional Readiness
Sustainment Command, Fort McCoy, Wisconsin,” December 20, 2007

Army Audit Agency Report No. A-2008-0023-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Red River Army
Depot, Texas,” December 5, 2007

Army Audit Agency Report No. A-2007-0242-ALO, “Base Realignment and Closure
2005 Construction Requirements: Battle Command Training Center, Fort Riley,
Kansas,” September 28, 2007

Army Audit Agency Report No. A-2007-0241-ALO, “Base Realignment and Closure
2005 Construction Requirements: Child Development Center, Fort Riley, Kansas,”
September 28, 2007

Army Audit Agency Report No. A-2007-0240-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Training and Doctrine Command
Headquarters, Fort Eustis, Virginia,” September 28, 2007

Army Audit Agency Report No. A-2007-0235-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Dix, New Jersey,”
September 26, 2007

Army Audit Agency Report No. A-2007-0219-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Camp Dodge, Iowa,”
September 14, 2007




                                        36
Army Audit Agency Report No. A-2007-0218-ALI, “Base Realignment and Closure
2005 Construction Requirements: United States Military Academy Preparatory School:
United States Military Academy, New York,” September 7, 2007

Army Audit Agency Report No. A-2007-0136-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Campbell,
Kentucky,” May 24, 2007

Army Audit Agency Report No. A-2006-0139-ALO, “Programming, Administration, and
Execution System DD Form 1391s: Assistant Chief of Staff for Installation
Management,” June 21, 2006

Navy
Naval Audit Service Report No. N2008-0014, “Selected Base Closure and Realignment
Department of the Navy Military Construction Projects Proposed for Fiscal Year 2009,”
December 19, 2007

Naval Audit Service Report No. N2008-0002, “Selected Department of the Navy Military
Construction Projects Proposed for Fiscal Year 2009,” October 17, 2007

Naval Audit Service Report No. N2007-0032, “Selected Base Realignment and Closure
Military Construction Projects Proposed for Fiscal Year 2008,” May 10, 2007

Naval Audit Service Report No. N2007-0006, “Selected Military Construction, Navy
Projects Proposed for Fiscal Year 2008,” December 4, 2006

Naval Audit Service Report No. N2006-0030, “Proposed Fiscal Year 2006-2007
Department of the Navy Military Construction Projects Resulting from Fiscal Year 2005
Base Closure and Realignment,” June 6, 2006

Air Force

Air Force Audit Agency Report No. F2006-0064-FDS000, “Construction Funds
Headquarters Air Education and Training Command, Randolph AFB, TX,” September 8,
2006

Air Force Audit Agency Report No. F2006-0007-FD1000, “Pacific Air Forces Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0008-FD1000, “Air Education and Training
Command Base Realignment and Closure Requirements Planning,” August 23, 2006




                                          37
Air Force Audit Agency Report No. F2006-0009-FD1000, “Air Combat Command Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0010-FD1000, “Air National Guard Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0006-FD1000, “Air Force Reserve Command
Base Realignment and Closure Requirements Planning,” August 3, 2006

Air Force Audit Agency Report No. F2006-0001-FB4000, “2005 Base Realignment and
Closure – Air Force Data Collection,” November 9, 2005




                                       38
Appendix C. Memorandum for Air Force
BRAC Office




                   39
40
Department of the Navy Comments




                  Click to add JPEG file




                                 41
Department of the Air Force Comments




                  Click to add JPEG file




                                 42
                           Final Report
                            Reference




                         Deleted




                         Revised, Page 7


Click to add JPEG file




               43
Click to add JPEG file




               44
                           Final Report
                            Reference




Click to add JPEG file
                         Renumbered as
                         A.1. and A.2.,
                         Page 17




               45
Click to add JPEG file




               46
                           Final Report
                            Reference




                         Referenced, Page 4




                         Revised, Page 1




Click to add JPEG file




               47
